VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Health 

                                                                    Administration

                                                                           Audit of 

                                                                     Mobile Medical Units





                                                                                        May 14, 2014
                                                                                        13-03213-152 

             ACRONYMS AND ABBREVIATIONS

CBOC         Community Based Outpatient Clinic
DSS          Decision Support System
FY           Fiscal Year
MMU          Mobile Medical Unit
OIG          Office of Inspector General
ORH          Office of Rural Health
RV           Recreational Vehicle
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VHA’s
                   Mobile Medical Units

Why We Did This Audit                          As a result of limited MMU data, we were
                                               unable to fully address the Committee’s
The House Committee on Appropriations          concerns. However, it is apparent that VHA
requested the Office of Inspector General to   cannot demonstrate whether the almost
conduct a review of VA’s use of Mobile         $29 million ORH spent, as well as unknown
Medical Units (MMUs) to assess whether         medical facility funding for MMUs,
the Veterans Health Administration (VHA)       increased rural veterans’ health care access
is fully utilizing MMUs to provide health      and the extent to which MMUs can be
care access to veterans in rural areas.        mobilized to support its emergency
                                               preparedness mission.
What We Found
                                               What We Recommended
VHA lacks information about the operations
of its MMUs and has not collected sufficient   We recommended the Under Secretary for
data to determine whether MMUs improved        Health improve the oversight of MMUs by
rural veterans’ health care access. VHA        assessing their effect on rural veterans’
lacks information on the number, locations,    health care access; establishing specific
purpose, patient workloads, and MMU            program responsibilities, policies, and
operating costs.                               guidance, including requirements to capture
                                               MMU data in DSS; and supporting
We determined VHA operated at least            emergency preparedness plans.
47 MMUs in fiscal year 2013. Of these,
19 were funded by the Office of Rural          Agency Comments
Health (ORH) and the remaining 28 were
funded by either a Veterans Integrated         The Under Secretary for Health concurred
Service Network or medical facility.           with our recommendations and provided an
Medical facilities captured utilization and    acceptable action plan. We will follow up
cost data in VHA’s Decision Support            on the implementation of the corrective
System (DSS) for only 6 of the estimated       actions.
47 MMUs. If VHA consistently captured
these data, it could compare MMU
utilization and costs with other health care
delivery approaches to ensure MMUs are
providing efficient health care access to
veterans in rural areas.
                                                        LINDA A. HALLIDAY
These weaknesses occurred because VHA                Assistant Inspector General
did not designate specific program                   for Audits and Evaluations
responsibility for MMU management, define
a clear purpose for its MMUs, or establish
policies and guidance for effective and
efficient MMU operations.
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              VHA Lacks Information To Determine Whether Mobile Medical Units 

                           Improve Rural Veterans’ Health Care.................................................................2
 

                          Recommendations................................................................................................9
 

Appendix A                 Background .......................................................................................................10
 

Appendix B                 Scope and Methodology................................................................................... 11
 

Appendix C                 Services Provided by MMUs Operating in FY 2013 ....................................... 13
 

Appendix D                 Under Secretary for Health Comments ............................................................ 18
 

Appendix E                 Office of Inspector General Contact and Staff Acknowledgments .................. 22
 

Appendix F                 Report Distribution........................................................................................... 23
 
                                                                   Audit of VHA’s Mobile Medical Units



                    INTRODUCTION
Objective           We conducted this audit to determine whether the Veterans Health
                    Administration (VHA) is fully utilizing mobile medical units (MMUs) to
                    provide improved health care access to veterans in rural areas.

What Was            The U.S. House of Representatives Committee on Appropriations requested
Asked of the        the Office of Inspector General (OIG) to conduct a review of VA’s use of
OIG
                    MMUs. The Committee was interested in whether VHA is fully utilizing
                    MMUs to provide improved health care access to veterans in rural areas. We
                    were asked to determine the following:

                    	 The average monthly usage per MMU and the optimum use of an MMU
                    	 Staffing per MMU and to what extent staffing shortages led to non-use of
                       the MMU
                    	 Average monthly cost per MMU
                    	 Any available comparisons between the costs of health care provided
                       through MMUs with the cost of health care provided through
                       conventional VA facilities
                    	 Total amount budgeted and actual costs for MMUs in FY 2012
                    	 VA’s long-term plans for the MMU pilot program

Mobile Medical      In 1988, Congress authorized $5 million for each of two fiscal years, through
Units               the Veterans’ Benefits and Services Act, for VHA to conduct an MMU
                    demonstration project. The project’s purpose was to increase rural veterans’
                    access to VA health care services and evaluate the feasibility of using
                    MMUs. A case study was published in 1999 of the six MMUs funded.

                    This study found that while there was an increased use of VHA’s outpatient
                    services that could be attributed to the MMUs, providing health care through
                    MMUs was expensive.1

Additional          The following appendixes provide additional information:
Information
                    	 Appendix A provides pertinent background information.
                    	 Appendix B provides details on our scope and methodology.
                    	 Appendix C provides details on MMUs operating across VHA.
                    	 Appendix D provides comments from the Under Secretary for Health.


                    1
                     Wrey N, Weiss T, Menke T, et al. Evaluation of the VA Mobile Clinics Demonstration
                    Project. Journal of Health Care Management. Mar/Apr 1999; 44, 2; ProQuest Research
                    Library, 133-147.


VA Office of Inspector General                                                                       1
                                                                         Audit of VHA’s Mobile Medical Units



                    RESULTS AND RECOMMENDATIONS
Finding 1 	         VHA Lacks Information To Determine Whether Mobile
                    Medical Units Improve Rural Veterans’ Health Care

                    VHA lacks information about the fundamental operations of its MMUs and
                    has not collected sufficient data to determine whether MMUs have improved
                    rural veterans’ access to health care. Specifically, VHA does not know the
                    number, locations, purpose, patient workloads, and operating costs of its
                    MMUs. Furthermore, VHA’s Office of Emergency Management did not
                    maintain a current accounting of MMUs enabling it to leverage these
                    resources to respond to local, regional, and national emergencies. Despite
                    these data limitations, VHA plans to continue operating its MMUs, as well as
                    fund additional MMUs through FY 2015.

                    From October 2007 to February 2014, the Office of Rural Health (ORH)
                    reported spending and tracking almost $29 million on MMU projects through
                    its rural health initiative. We determined VHA operated at least 47 MMUs
                    in FY 2013. Of the estimated 47 MMUs, we identified 19 MMUs that were
                    funded by ORH, and 28 MMUs that were funded by either a Veterans
                    Integrated Service Network (VISN) or medical facility. We found MMUs
                    provided various services, such as primary care, mental health, flu
                    vaccinations, and veteran outreach. In addition, we observed a range of
                    vehicles used as MMUs, including converted recreational vehicles (RVs),
                    tractor trailers, trucks, and vans, as well as a bus. We found that some
                    MMUs were used on average as little as 5 days per month to as much as
                    14 days a month in FY 2013.

                    However, medical facilities captured MMU-specific workload and
                    operational cost data in VHA’s Decision Support System (DSS) for only 6 of
                    the estimated 47 MMUs. Data captured in DSS provide the link between
                    expenses, workload, and patient utilization. Accurately recording MMU-
                    specific data would allow VHA to compare MMU workloads and operating
                    costs with other health care delivery methods, such as Community Based
                    Outpatient Clinics (CBOCs), or to its recent Patient-Centered Community
                    Care initiative.2

                    VHA lacks information about the fundamental operations of its MMUs for
                    the following reasons:
                       Absence of specific program responsibility for managing VHA’s MMUs

                    2
                      Under Patient-Centered Community Care, medical facilities have the ability to purchase
                    non-VA medical care for veterans through contracted medical providers when medical
                    facilities cannot readily provide the needed care due to geographic inaccessibility or limited
                    capacity. Eligible veterans can access inpatient specialty care, outpatient specialty care,
                    mental health care, and limited emergency care.


VA Office of Inspector General                                                                                  2
                                                                Audit of VHA’s Mobile Medical Units


                       Lack of a clearly defined purpose for MMUs
                       Absence of published policies and guidance that provide for effective and
                        efficient MMU operations, including requirements to capture consistent
                        MMU cost and workload data

                    As a result of the lack of VHA cost and workload data, we were unable to
                    fully address the Committee’s concerns about VHA’s utilization of MMUs.
                    However, it is apparent that VHA cannot demonstrate whether the almost
                    $29 million ORH spent from October 2007 to February 2014, in addition to
                    unknown medical facility spending on MMU operations, increased rural
                    veterans’ access to health care or improved its emergency preparedness. We
                    have concerns that without improved oversight, VHA will not be able to
                    determine the effect of its MMU spending in FY 2015 and beyond.

Basic               VHA lacks information about the basic operations of its MMUs and has not
Information on      collected sufficient data to determine to what extent, if any, MMUs have
MMUs Is
Lacking
                    improved rural veterans’ access to health care. Specifically, VHA does not
                    know the number, locations, purpose, patient workloads, and operating costs
                    of its MMUs.          We obtained ORH’s MMU funding data from
                    October 2007 to February 2014. ORH reported spending almost $29 million
                    through its rural health initiative to purchase and operate MMUs, which
                    included costs related to MMU clinical staff salaries, satellite
                    communications equipment and installation, and fuel and maintenance.
                    ORH officials reported currently MMUs can be funded for up to 3 years and
                    funds can be used for the purchase of the MMU and its operations. After
                    ORH funding expires, the MMU is expected to be funded by the operating
                    medical facility.

                    The U.S. Government Accountability Office’s Standards for Internal
                    Control in the Federal Government state that controls are an integral part of
                    an organization’s planning, implementation, review, and accounting of
                    Government resources in order to achieve effective results. Controls include
                    the plans, methods, and procedures an organization uses to meet its mission,
                    goals, and objectives and, when properly implemented, support its
                    performance-based resource management.

No Clear            VHA has not clearly defined what constitutes an MMU. For purposes of this
Purpose for         report, we defined an MMU as a vehicle such as a bus, RV, tractor trailer,
MMUs
                    truck, or van that can be used to provide services, such as health care and
                    screenings to veterans. We determined VHA operated at least 47 MMUs in
                    FY 2013. Of these estimated 47 MMUs, we identified 19 MMUs that were
                    funded by ORH, and 28 MMUs that were funded by either a VISN or
                    medical facility. Most MMUs had more than one purpose, frequently
                    veteran outreach and primary care. Table 1 provides a summary of MMUs
                    we identified that operated in FY 2013, including the funding source,
                    purpose, and vehicle description.



VA Office of Inspector General                                                                   3
                                                                    Audit of VHA’s Mobile Medical Units


                                 Table 1. Summary of MMUs Operating in FY 2013
                                    Funding Source                         Number of MMUs
                      VISN or Medical Facility                                       28
                      ORH                                                            19
                                        Purpose
                      Outreach                                                       29
                      Primary Care                                                   24
                      Health Screenings                                              21
                      Mental Health                                                  14
                      Women’s Health                                                  6
                      Prosthetics                                                     5
                      Other (for example, diagnostics,
                                                                                     23
                      podiatry, shots)
                                 Vehicle Description
                      Converted RV                                                   26
                      Truck                                                           7
                      Van                                                             6
                      Bus                                                             5
                      Tractor Trailer                                                 3
                      Source: VA OIG VISN Survey, Follow-Up Email Correspondence, and Site Visits

                    Additionally, we found that VHA’s Office of Emergency Management did
                    not maintain a current accounting of MMUs. It is critical that the Office of
                    Emergency Management, which is responsible for coordinating VA medical
                    resources during and after an emergency or disaster, has updated information
                    on VHA’s MMUs, their locations, and capabilities. An Office of Emergency
                    Management official told us that during an emergency, resources like MMUs
                    are generally identified through an informal network of contacts across a
                    VISN.

                    When an emergency or disaster occurs, the Office of Emergency
                    Management needs to know the locations of MMU resources and whether
                    these resources can be mobilized to provide services at local, regional, and
                    national levels to ensure the health and safety of veteran patients and their
                    families, staff, and visitors. The following is an illustration of how an MMU
                    was deployed in VISN 3 to provide veterans access to health care services
                    following Hurricane Sandy.




VA Office of Inspector General                                                                       4
                                                               Audit of VHA’s Mobile Medical Units


                    	 Hurricane Sandy, which made landfall in late October 2012, caused
                       widespread flooding that resulted in significant damage to the VA
                       Manhattan Medical Center. An MMU operated by the VA Northport
                       Medical Center was moved onsite to the VA Manhattan Medical Center
                       to provide primary care to veterans. A Northport medical facility official
                       reported the MMU was kept onsite from November 2012 to March 2013.
Utilization of      We found during our site visits that medical facilities deploy their MMUs in
MMUs Varies         different ways. MMUs were used to provide services, such as primary care,
                    mental health, flu shots, and veteran outreach. Some MMUs were used to
                    transport supplies and clinical staff to expand specialty care at CBOCs. In
                    addition, we observed a range of vehicles used as MMUs, including
                    converted RVs, tractor trailers, trucks, and vans, as well as a bus. Medical
                    facilities reported various utilization rates for their MMUs. We measured the
                    number of operating days for MMUs whose data were captured in DSS. We
                    found that on average, these MMUs operated as little as 5 days to as much as
                    14 days per month in FY 2013.

                    While services were provided by the MMUs discussed below, the following
                    examples illustrate the absence of a clearly defined purpose and utilization
                    criteria for MMUs. ORH requires facilities to justify their MMU operations
                    for funding. We found that some facilities, such as the Louis A. Johnson VA
                    Medical Center in Clarksburg, WV, and the VA Maine Healthcare System
                    changed their MMU operations subsequent to ORH funding in response to
                    low veteran turnout or high operational costs.

                    	 In FY 2009, the Louis A. Johnson VA Medical Center began operating an
                       MMU at locations in 19 rural counties. In FY 2012, the medical center
                       changed the MMU’s operational schedule in response to changing levels
                       of veteran demand at some locations. Specifically, the MMU stopped
                       servicing Grantsville, WV, because of low veteran demand, while
                       increasing the number of days it serviced Spencer, WV. The MMU’s
                       operating hours for Buckhannon, WV; Elkins, WV; New Martinsville,
                       WV; and Sistersville, WV, were also increased. Increasing the MMU’s
                       operating hours allowed clinicians to schedule four additional
                       appointments from 8 to 12 per day. The MMU provided services, such as
                       primary care, mental health, and outreach, to veterans in FY 2013. A
                       photograph of this MMU is at Image 1.




VA Office of Inspector General                                                                  5
                                                                     Audit of VHA’s Mobile Medical Units


                                 Image 1. The Louis A. Johnson VA Medical Center’s 

                                                       MMU 





                                 Source: VA OIG; Louis A. Johnson VA Medical Center, Clarksburg,
                                 WV; 2:53 p.m.; July 24, 2013

                    	 In 2008, the VA Maine Healthcare System in Togus, ME, received
                       funding from ORH to purchase and operate a tractor trailer MMU.
                       Funding from ORH over 4 years totaled approximately $2.9 million.
                       While the tractor trailer MMU has the capacity to be mobile, it was
                       permanently parked in Bingham, ME, in FY 2011 because of factors
                       including high operational costs and unreliable remote connections to
                       VHA’s information system. The MMU is open 2 days a week and served
                       about 400 patients in FY 2013. The MMU provides services, such as
                       primary care and eligibility and enrollment.

                                  Image 2. The MMU purchased by the VA Maine 

                                         Healthcare System in Togus, ME. 





                                 Source: VA OIG; Bingham, ME; 10:59 a.m.; July 2, 2013




VA Office of Inspector General                                                                        6
                                                                    Audit of VHA’s Mobile Medical Units


                    	 VISN 11 used vans as MMUs to expand specialty care, such as
                       prosthetics and orthotics, at 19 CBOCs. Purchased at an average price of
                       about $76,500, vans were used to transport technicians and prosthetic and
                       orthotic supplies, such as braces, diabetic shoes, and inserts. As a result,
                       the VISN reported about 3,000 veterans were able to receive prosthetic
                       and orthotic care at their local CBOC in FY 2013, rather than having to
                       travel to a medical facility. Veterans told us they preferred to receive
                       their prosthetic care at their CBOC because factors, such as gas costs,
                       limited parking, and traffic congestion, made driving to medical facilities
                       in Saginaw, MI, or Marion, IN, difficult. A VISN 11 official reported
                       MMU operations were halted at the Bad Axe, MI, CBOC in
                       FY 2013 because of low veteran demand for prosthetics services. MMU
                       services, however, were increased to 1 or 2 days a week, or about 6 times
                       a month at the Grayling, MI, CBOC in response to greater than expected
                       veteran demand for services.

                                 Image 3. VISN 11 used vans to expand specialty care
                                                   at 19 CBOCs.




                                 Source: VA OIG; Clare CBOC; Clare, MI; 10:18 a.m.;
                                 September 24, 2013

Recording of        We determined medical facilities only recorded MMU-specific workload,
Workload and        patient, and operational cost data in DSS for 6 of the estimated 47 MMUs.
Cost Data
Inadequate
                    The purpose of DSS is to serve as a mechanism for integrating VHA’s
                    expenses and workload, simulating business issue scenarios, and monitoring
                    patient treatment patterns. Data captured in DSS provide the link between
                    expenses, workload, and patient utilization.

                    VHA requires the use of DSS to meet the Federal Government’s Managerial
                    Cost Accounting requirements. However, we found that at more than half of
                    the sites we visited, the MMU workload and operational costs were included
                    under an accounting code shared by another service line, such as primary
                    care. VHA does not require medical facilities to request VHA’s Managerial


VA Office of Inspector General                                                                       7
                                                                Audit of VHA’s Mobile Medical Units


                    Cost Accounting Office to establish an accounting code for each MMU. Use
                    of unique codes would allow DSS to extract cost and workload information
                    specific to each MMU.

                    DSS has the capacity to generate standard reports on an MMU’s total costs,
                    clinic encounters, and average cost per encounter. Accurately recording
                    MMU-specific data would allow VHA to compare MMU workloads, costs,
                    and effect on rural veterans’ access to health care with other health care
                    delivery methods, such as CBOCs or rural health clinics. Comprehensive
                    and accurate MMU workload data could be used by medical facility officials
                    to reassess business decisions, such as changing or maintaining an MMU’s
                    staffing or route. Furthermore, medical facility officials could use DSS data
                    to determine the costs and benefits of purchasing non-VA medical care from
                    contracted medical providers, such as available through VHA’s Patient-
                    Centered Community Care initiative.

Reasons VHA         VHA has not designated management responsibility for establishing policy
Lacks               and providing oversight of its fleet of MMUs. A tenet of Standards for
Information on
MMUs
                    Internal Control in the Federal Government is that an organization’s
                    structure provides the framework for planning, directing, and controlling
                    operations to achieve an organization’s objectives. A good internal control
                    environment requires that the agency’s organizational structure clearly
                    defines key areas of authority and responsibility and establishes appropriate
                    lines of reporting.

                    VHA needs to designate management responsibility for developing MMU
                    policy and strategy that leads to well-informed resource allocation and policy
                    decisions based on verifiable data and sound program management
                    principles. Functions a program office would perform include developing a
                    clear definition of what constitutes an MMU, program objectives,
                    organizational responsibilities, and data collection methodologies. If VHA
                    does not define MMU objectives and establish measures to evaluate
                    performance, it cannot determine if MMUs provide a complementary
                    delivery method to improve health care access to rural veterans.

Effects of          As a result of VHA’s limited information, it cannot fully account for its
Knowing Little      MMUs and ensure that existing resources can be mobilized to respond to
About MMU
Operations
                    emergencies. Furthermore, VHA cannot demonstrate to what extent the
                    almost $29 million ORH spent on MMUs, as well as unknown medical
                    facility spending on MMUs, increased rural veterans’ access to health care.
                    We have concerns that without improved oversight, VHA will not be able to
                    determine the effect of its future spending on MMUs in FY 2015 and
                    beyond.

Conclusion          Given that meeting the health care needs of rural veterans is among VA’s
                    highest health care priorities, it is vital for VHA to enhance its management
                    of MMUs to measure rural veterans’ access to health care. With a defined


VA Office of Inspector General                                                                   8
                                                                 Audit of VHA’s Mobile Medical Units


                    purpose and reliable operational and financial data, VHA could assess the
                    effect of MMUs on rural veterans’ access to health care, as well as identify
                    MMU implementation challenges, cost effectiveness, and best practices.
                    This would position VHA to fully leverage MMUs to meet the needs of rural
                    veterans and better target any expansions to its MMU fleet to meet identified
                    health care access gaps.

                    Recommendations
                    1.	 We recommended the Under Secretary for Health withhold funding for
                        new mobile medical units until a comprehensive assessment is conducted
                        to assess factors, such as the current composition of the mobile medical
                        unit fleet, services provided, operational days and costs, and the effect on
                        rural veterans’ access to health care.
                    2.	 We recommended the Under Secretary for Health assign responsibility
                        for developing mobile medical unit policies, objectives, and strategy, and
                        for providing program oversight.
                    3.	 We recommended the Under Secretary for Health assign responsibility
                        for maintaining operational data on mobile medical units to ensure
                        mobile medical unit resources can be used as part of VHA’s emergency
                        preparedness plan.
                    4.	 We recommended the Under Secretary for Health publish necessary
                        policy and guidance to provide for effective and efficient mobile medical
                        unit operations.
                    5.	 We recommended the Under Secretary for Health implement a
                        mechanism to ensure that mobile medical unit-specific operations and
                        financial data, such as patient workload, services provided, and costs, are
                        collected in the Veterans Health Administration’s Decision Support
                        System.

Management          The Under Secretary for Health concurred with our recommendations. The
Comments            Under Secretary for Health reported the Deputy Under Secretary for Health
                    for Operations and Management will issue direction for a comprehensive
                    assessment of VHA’s use of MMUs and will make recommendations to the
                    Under Secretary for Health based on this assessment. The Deputy Under
                    Secretary for Health for Operations and Management will also issue
                    direction to all VISN Directors to withhold funding for the purchase of new
                    MMUs or for new resources for current MMUs until the Under Secretary for
                    Health has made a decision regarding MMUs in VHA. VHA’s actions on
                    recommendations 2, 3, 4, and 5 are contingent on the Under Secretary for
                    Health’s decision regarding VHA’s continued use of MMUs.

OIG Response        VHA’s planned corrective actions are responsive. We will monitor VHA’s
                    progress and follow up on the implementation of our recommendations until
                    all proposed actions are completed. Appendix D provides the full text of the
                    Under Secretary for Health’s comments.


VA Office of Inspector General                                                                    9
                                                                Audit of VHA’s Mobile Medical Units


Appendix A          Background

Rural Veteran       VA’s Office of the Actuary reported the total veteran population at the end of
Population          FY 2013 was around 21.9 million of which about 5.3 million, or
                    24.2 percent, were considered living in rural areas. Nearly 35 percent of
                    veterans enrolled in VHA live in rural or highly rural areas, according to
                    VA’s Office of the Actuary. VHA uses a U.S. Census Bureau definition of
                    urban and rural areas. An urbanized area is any block or block group having
                    a population density of at least 1,000 people per square mile. A rural area is
                    defined as an area with 7 or more, but less than 1,000 people per square mile.

Office of Rural     ORH was established in 2007 with a mission to improve access and quality
Health              of care for veterans enrolled in VHA living in rural areas. ORH funds
Operations
                    MMUs through its rural health initiative. ORH spent almost $29 million on
                    MMU projects from October 2007 to February 2014. Appendix C details
                    MMUs funded by ORH or by a VISN or VA medical facility that operated in
                    FY 2013.




VA Office of Inspector General                                                                  10
                                                                   Audit of VHA’s Mobile Medical Units


Appendix B          Scope and Methodology

Scope               Our audit was conducted from July 2013 through March 2014. The scope of
                    our audit included the estimated 47 MMUs that operated in FY 2013.

Methodology         To determine if there were any criteria applicable to MMUs, we reviewed
                    VHA and ORH policies and procedures, including VA’s financial and
                    capitalization policies. We reviewed available studies on MMU operations,
                    outcomes, and costs. To determine VHA’s MMU budget and costs, we
                    reviewed ORH-provided budget data, DSS data, and available medical
                    facility MMU cost information. We analyzed ORH strategic plans,
                    interviewed ORH officials and medical facility MMU managers, and
                    reviewed MMU-related project documentation. We also interviewed Office
                    of Emergency Management officials to assess the role of their office in the
                    management and oversight of MMUs.

                    We visited 14 medical facilities and 1 VISN, where we visited 1 medical
                    facility and 2 CBOCs. We interviewed local officials involved with MMU
                    management and operations, including senior administrators, clinical staff,
                    DSS personnel, and vehicle fleet managers. We walked through MMUs
                    operating at each location. Table 2 details our site visit locations.

                                           Table 2. OIG Site Visit Locations
                      VISN                     Medical Facility                       Location
                         1       VA Maine Healthcare System                       Togus, ME
                         3       Northport VA Medical Center                      Northport, NY
                         4       Louis A. Johnson VA Medical Center               Clarksburg, WV
                         4       Wilmington VA Medical Center                     Wilmington, DE
                         6       Hunter Holmes McGuire VA Medical Center          Richmond, VA
                         7       Tuscaloosa VA Medical Center                     Tuscaloosa, AL
                        10       Cincinnati VA Medical Center                     Cincinnati, OH
                        11       VISN 11 Veterans in Partnership                  Ann Arbor, MI
                        16       G.V. (Sonny) Montgomery VA Medical Center Jackson, MS
                        17       South Texas Veterans Health Care System          San Antonio, TX
                        19       Cheyenne VA Medical Center                       Cheyenne, WY
                        19       VA Eastern Colorado Health Care System           Denver, CO
                        20       Mann-Grandstaff VA Medical Center                Spokane, WA
                        20       VA Puget Sound Health Care System                Seattle, WA
                        23       VA Central Iowa Health Care System               Des Moines, IA
                      Source: VA OIG



VA Office of Inspector General                                                                     11
                                                                   Audit of VHA’s Mobile Medical Units


VISN Survey         To determine the number of MMUs that were in use during FY 2013 and the
                    services they provided, we conducted an online survey of all 21 VISN
                    Directors. We obtained a 100 percent response rate. We followed up with
                    each VISN via email to obtain information on the type of vehicle that was
                    used as an MMU.

Fraud               We assessed the risk that fraud, violations of legal and regulatory
Assessment          requirements, and abuse could occur during this audit. Alert to fraud
                    indicators, we exercised due diligence in taking the following actions:

                       Soliciting the OIG’s Office of Investigations for indicators
                       Conducting steps to review MMU operations for potential fraud

                    We did not identify fraud during this audit.

Data Reliability    We determined that we could not use DSS to assess MMU-workload and
                    operational costs because data on only 6 of the estimated 47 MMUs
                    operating in FY 2013 were captured in this system. Furthermore, we
                    determined that DSS data for two additional MMUs operated by the
                    Cheyenne VA Medical Center were not accurate because the costs and
                    workload of both MMUs were captured under one station code. Data on
                    such a small number of MMUs could not be used to draw reliable
                    conclusions about MMUs’ workload and costs in FY 2013. Data obtained
                    from our VISN survey were used to validate ORH-reported data on MMU
                    operations. We also confirmed ORH-reported information and selected
                    survey data through interviews of VHA and local medical facility officials
                    during our site visits.

Government          Our assessment of internal controls focused on those controls related to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                     12
                                                                                                  Audit of VHA’s Mobile Medical Units



Appendix C             Services Provided by MMUs Operating in FY 2013

                       The following table shows the services provided to veterans by MMUs operated by VHA during FY 2013.
                       The table identifies the medical facility and location, the type of services, as well as the type of vehicle.

                                     Table 3. Services Provided by MMUs Operating in FY 2013
  Medical Facility and                  Primary     Health       Mental        Women’s
                            Outreach                                                         Prosthetics   Other*   Vehicle Type
        Location                         Care     Screenings     Health         Health
 VA Maine Healthcare                                                                                                  Tractor
                                           X
 System, Togus, ME                                                                                                    Trailer
 Bath VA Medical                                                                                                     Converted
                                 X                                                                           X
 Center, Bath, NY                                                                                                      RV
 Northport VA Medical
                                 X                    X                                                      X         Truck
 Center, Northport, NY
 Northport VA Medical
                                 X                                                                           X         Truck
 Center, Northport, NY
 VA Hudson Valley
 Health Care System,                                                                                         X          Bus
 Montrose, NY
 VA Hudson Valley
                                                                                                                     Converted
 Health Care System,                                               X                                         X
                                                                                                                       RV
 Montrose, NY
 VA Hudson Valley
                                                                                                                     Converted
 Health Care System,             X
                                                                                                                       RV
 Montrose, NY
 James J. Peters VA
 Medical Center, Bronx,          X         X          X                                                      X          Bus
 NY
 VA New Jersey Health
                                                                                                                     Converted
 Care System,East                X                    X
                                                                                                                       RV
 Orange, NY




VA Office of Inspector General                                                                                                     13
                                                                                      Audit of VHA’s Mobile Medical Units


  Medical Facility and      Outreach   Primary     Health     Mental   Women’s   Prosthetics   Other*   Vehicle Type
        Location                        Care     Screenings   Health    Health
 VA NY Harbor
                                                                                                         Converted
 Healthcare System, New          X       X           X                                           X
                                                                                                           RV
 York, NY
 VA NY Harbor
                                                                                                         Converted
 Healthcare System, New          X       X           X                                           X
                                                                                                           RV
 York, NY
 Louis A. Johnson VA
                                                                                                         Converted
 Medical Center,                 X       X
                                                                                                           RV
 Clarksburg, WV
 Wilmington VA Medical                                                                                   Converted
                                 X       X                      X
 Center, Wilmington, DE                                                                                    RV
 Hunter Holmes McGuire
                                                                                                         Converted
 VA Medical Center,              X       X                      X
                                                                                                           RV
 Richmond, VA
 Hunter Holmes McGuire
                                                                                                         Converted
 VA Medical Center,              X       X                      X
                                                                                                           RV
 Richmond, VA
 Fayetteville VA Medical                                                                                 Converted
                                                                                                 X
 Center, Fayetteville, NC                                                                                  RV
 Fayetteville VA Medical
                                 X                                                               X         Truck
 Center, Fayetteville, NC
 Tuscaloosa VA Medical
                                 X       X           X                                           X         Truck
 Center, Tuscaloosa, AL
 Orlando VA Medical                                                                                      Converted
                                         X
 Center, Orlando, FL                                                                                       RV
 James A. Haley
                                                                                                         Converted
 Veterans’ Hospital,             X       X           X          X
                                                                                                           RV
 Tampa, FL
 Cincinnati VA Medical
                                 X                                                                         Truck
 Center, Cincinnati, OH




VA Office of Inspector General                                                                                         14
                                                                                       Audit of VHA’s Mobile Medical Units


  Medical Facility and      Outreach   Primary     Health     Mental   Women’s   Prosthetics   Other*   Vehicle Type
         Location                       Care     Screenings   Health    Health
 Chillicothe VA Medical
                                 X       X           X          X        X                                  Truck
 Center, Chillicothe, OH
 Chalmers P. Wylie
 Ambulatory Care Center,         X       X                      X                                           Truck
 Columbus, OH
 Dayton VA Medical                                                                                        Converted
                                 X
 Center, Dayton, OH                                                                                         RV
 VA Illiana Health Care
                                                                                     X                      Van
 System, Danville, IL
 VA Northern Indiana
 Health Care System,                                                                 X                      Van
 Fort Wayne, IN
 Richard L. Roudebush
 VA Medical Center,                                                                  X                      Van
 Indianapolis, IN
 Aleda E. Lutz VA
 Medical Center,                                                                     X                      Van
 Saginaw, MI
 Edward Hines Jr. VA                                                                                      Converted
                                 X       X           X          X        X                       X
 Hospital, Hines, IL                                                                                        RV
 Kansas City VA Medical                                                                                   Converted
                                 X       X           X          X        X
 Center, Kansas City, MO                                                                                    RV
 Robert J. Dole VA
                                                                                                          Converted
 Medical Center, Wichita,        X       X           X          X        X                       X
                                                                                                            RV
 KS
 Alexandria VA Health
                                                                                                          Converted
 Care System,                            X           X                   X
                                                                                                            RV
 Alexandria, LA
 G.V. (Sonny)
 Montgomery VA                                                                                            Converted
                                 X                   X
 Medical Center,                                                                                            RV
 Jackson, MS


VA Office of Inspector General                                                                                         15
                                                                                      Audit of VHA’s Mobile Medical Units


  Medical Facility and     Outreach   Primary     Health     Mental   Women’s   Prosthetics   Other*   Vehicle Type
        Location                       Care     Screenings   Health    Health
 Michael E. DeBakey VA
                                                                                                         Converted
 Medical Center,                                                                                X
                                                                                                           RV
 Houston, TX
 Central Arkansas
                                                                                                         Converted
 Veterans Healthcare                                                                            X
                                                                                                           RV
 System, Little Rock, AR
 South Texas Veterans
                                                                                                         Converted
 Health Care System, San                                                                        X
                                                                                                           RV
 Antonio, TX
 VA Texas Valley
 Coastal Bend Health                                                                                     Converted
                                                    X          X                                X
 Care System, Harlingen,                                                                                   RV
 TX
 West Texas VA Health
 Care System, Big                XX                                                             X          Bus
 Spring, TX
 Northern Arizona VA
                                                                                                         Converted
 Health Care System,
                                                                                                           RV
 Prescott, AZ
 Cheyenne VA Medical                                                                                      Tractor
                                        X           X          X                                X
 Center, Cheyenne, WY                                                                                     Trailer
                                 X
 Cheyenne VA Medical
                                        X           X          X                                X          Truck
 Center, Cheyenne, WY

 VA Puget Sound Health                                                                                    Tractor
 Care System, Seattle,           X      X           X                                           X
                                                                                                          Trailer
 WA
 Mann-Grandstaff VA
 Medical Center,                 X      X           X                   X           X           X          Bus
 Spokane, WA
 VA Palo Alto Health
 Care System, Palo Alto,         X                  X                                                      Van
 CA


VA Office of Inspector General                                                                                        16
                                                                                                Audit of VHA’s Mobile Medical Units


  Medical Facility and         Outreach      Primary        Health     Mental   Women’s   Prosthetics   Other*   Vehicle Type
        Location                              Care        Screenings   Health    Health
 VA Palo Alto Health
                                                                                                                   Converted
 Care System, Palo Alto,            X                           X
                                                                                                                     RV
 CA
 VA Long Beach
 Healthcare System, Long            X            X              X        X                                           Bus
 Beach, CA
 St. Cloud VA Health
                                                                                                                   Converted
 Care System, St. Cloud,                                                                                  X
                                                                                                                     RV
 MN
 Source: VA OIG VISN Survey, Follow-Up Email Correspondence, and Site Visits
 *
     Other services include diagnostics, podiatry, and shots.




VA Office of Inspector General                                                                                                  17
                                                                                Audit of VHA’s Mobile Medical Units


Appendix D                 Under Secretary for Health Comments



                  Department of                                       Memorandum
                  Veterans Affairs

          Date:	          April 22, 2014

          From:	          Under Secretary for Health (10)

          Subj:	          OIG Draft Report, Veterans Health Administration Audit of Mobile Medical Units 

                          (Project No. 2013-03213-R1-0166) (VAIQ 7463047)


            To:           Assistant Inspector General for Audits and Evaluations (52)



                   1. 	   I have reviewed the draft report and concur with the report’s recommendations.
                          Attached is the Veterans Health Administration’s corrective action plan for
                          recommendations 1-5.


                   2. 	 Thank you for the opportunity to review the draft report. If you have any
                        questions, please contact Karen Rasmussen, M.D., Director, Management Review
                        Service (10AR) at (202) 461-6643.




                          Attachment




VA Office of Inspector General                                                                                  18
                                                                  Audit of VHA’s Mobile Medical Units


                                                                                       Attachment

                             VETERANS HEALTH ADMINISTRATION (VHA)
                                          Action Plan

OIG Draft Report, Audits and Evaluations: Veterans Health Administration Audit of
                  Mobile Medical Units

Date of Draft Report: March 26, 2014
_____________________________________________________________________________
Recommendations/                       S
                                       	 tatus                 Completion
Actions    	                                                  Date


Recommendation 1. We recommend the Under Secretary for Health withhold funding for new
mobile medical units until a comprehensive assessment is conducted to assess factors, such as
the current composition of the mobile medical unit fleet, services provided, operational days and
costs, and the effect on rural veterans’ access to health care.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management (DUSHOM) will issue
direction for a comprehensive assessment of use of mobile medical units (MMUs) in the
Veterans Health Administration (VHA). The DUSHOM will make recommendations to the Under
Secretary for Health based on the comprehensive assessment of MMUs.

The DUSHOM will issue direction to all Network Directors to withhold funding for the purchase
of new MMUs or for new resources for current MMUs until the Under Secretary for Health has
made his decision regarding MMUs in VHA.

VHA actions on recommendations 2, 3, 4, and 5 are contingent on the Under Secretary for
Health’s decision regarding continued use of Mobile Medical Units in VHA.

To complete this action plan VHA will provide documentation of:
    1. 	 Notification to all program offices, Veterans Integrated Service Networks, and facilities
         prohibiting the use of any funds for the purchase of new MMUs or new resourcing for
         current MMUs.
     2. The Under Secretary for Health’s decision regarding use of MMUs in VHA.

                                                  In progress 	                   July 31, 2014

Recommendation 2. We recommend the Under Secretary for Health assign responsibility for
developing mobile medical unit policies, objectives, strategy, and for providing program
oversight.

VHA Comments

Concur



VA Office of Inspector General                                                                    19
                                                                 Audit of VHA’s Mobile Medical Units



VHA must defer any actions on this recommendation until the Under Secretary for Health has
decided on the use of MMUs referred to in recommendation 1. Contingent on the Under
Secretary for Health’s decision, the Under Secretary for Health will assign responsibility for
developing mobile medical unit policies, objectives, strategy, and for providing oversight of
MMUs in VHA.

To complete this action plan VHA will provide documentation of:
    1. 	 The Under Secretary for Health’s decision regarding use of MMUs
    2. 	 If appropriate, the program office assigned responsibility for developing MMU policies,
         objectives, strategy, and oversight.

                                                 In progress 	                   March 2015

Recommendation 3. We recommend the Under Secretary for Health assign responsibility for
maintaining operational data on mobile medical units to ensure mobile medical unit resources
can be used as part of VHA’s emergency preparedness plan.

VHA Comments

Concur

VHA must defer any actions on this recommendation until the Under Secretary for Health has
decided on the use of MMUs referred to in recommendation 1. Contingent on the Under
Secretary for Health’s decision, the Under Secretary for Health will assign responsibility for
maintaining operational data on relevant MMUs that can be made available for national
emergency response as part of VHA’s emergency preparedness plan.

To complete this action plan VHA will provide documentation of:
    1. 	  The Under Secretary for Health’s decision regarding use of MMUs.
    2. 	  If appropriate, the program office assigned responsibility for maintaining operational
          data on MMUs for national emergency response.

                                                 In progress 	                   March 2015

Recommendation 4. We recommend the Under Secretary for Health publish necessary policy
and guidance to provide for effective and efficient mobile medical unit operations.

VHA Comments

Concur

VHA must defer any actions on this recommendation until the Under Secretary for Health has
decided on the use of MMUs referred to in recommendation 1. Additionally the timeframe for
developing and publishing policy far exceeds the 1 year requirement for completion of OIG
recommendations. However, contingent on the Under Secretary’s decision regarding MMUs,
the responsible program office identified in recommendation 2 will conduct a review of current
VHA guidance and policies and obtain approval on a plan for developing new or revising current
VHA guidance or policy on MMUs in VHA. The plan will include a timeline that specifies the
timeframes for obtaining stakeholder input on proposed guidance or policy, drafting documents


VA Office of Inspector General                                                                   20
                                                                  Audit of VHA’s Mobile Medical Units


or materials, obtaining pre-concurrence on draft documents or materials, finalizing draft
documents or materials, obtaining final concurrences including any negotiations with Labor
Management and adequate time for General Counsel to thoroughly review.

To complete this action plan VHA will provide documentation of:
     1. 	 The Under Secretary for Health’s decision regarding use of MMUs.
     2. 	 If appropriate, the plan for developing new or revising current VHA policy or guidance
           on MMUs in VHA.
     3. 	 Any documents or materials that have been completed within the 1 year timeframe
           for this OIG recommendation, i.e., by March 31, 2015.

                                                  In progress 	                   March 2015

Recommendation 5. We recommend the Under Secretary for Health implement a mechanism
to ensure that mobile medical unit-specific operations and financial data, such as patient
workload, services provided, and costs, are collected in the Veterans Health Administration’s
Decision Support System.

VHA Comments

Concur 


VHA must defer any actions on this recommendation until the Under Secretary for Health has 

decided on the use of MMUs referred to in recommendation 1. Contingent on the Under 

Secretary for Health’s decision, the Office of Finance will implement a mechanism to ensure that 

mobile medical unit-specific operations and financial data, such as patient workload, services 

provided, and costs, are collected in VHA’s Decision Support System (DSS). 


To ensure all appropriate information is recorded in the Managerial Cost Accounting (MCA) 

Decision Support System:

   Guidance will be provided to Directors and MCA Site Managers at all applicable medical 

    centers
   MCA Help Desk will monitor facilities to ensure compliance

To complete this action plan VHA will provide documentation of:
    1. 	 The Under Secretary for Health’s decision regarding use of MMUs.
    2. 	 If appropriate, the DSS code for all MMUs in VHA.
    3. 	 If appropriate, financial data, patient workload, services, provided, and costs collected
         through DSS coding as of March 31, 2015.
    4. 	 Guidance provided to Directors and MCA Site Managers at all applicable medical
         centers
    5. 	 Report of MC Help Desk monitoring of facility compliance.

                                                  In progress 	                   March 31, 2015

Veterans Health Administration
April 2014




VA Office of Inspector General                                                                    21
                                                       Audit of VHA’s Mobile Medical Units


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Nick Dahl, Director
                                         Irene J. Barnett
                                         Ronald Comtois
                                         Lee Giesbrecht
                                         Karen Hatch
                                         Benjamin Howe
                                         Jenna Lamy
                                         Jennifer Leonard
                                         William Maroon
                                         James McCarthy
                                         Sunday Okurume
                                         David Orfalea
                                         Joseph Vivolo




VA Office of Inspector General                                                         22
                                                             Audit of VHA’s Mobile Medical Units




Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               23
